<html>
<title> - THE QUESTIONABLE CASE FOR EASING SUDAN SANCTIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                   THE QUESTIONABLE CASE FOR EASING 
                            SUDAN SANCTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2017

                               __________

                           Serial No. 115-21

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       

                                 ______
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-260 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Princeton N. Lyman, senior advisor to the 
  president, United States Institute of Peace....................     5
Mr. Brad Brooks-Rubin, policy director, The Sentry...............    13
Mr. David Dettoni, senior advisor, Sudan Relief Fund.............    28
Mr. Mohamed Abubakr, president, The African Middle Eastern 
  Leadership Project.............................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Princeton N. Lyman: Prepared statement.............     8
Mr. Brad Brooks-Rubin: Prepared statement........................    16
Mr. David Dettoni: Prepared statement............................    33
Mr. Mohamed Abubakr: Prepared statement..........................    46

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Border Control from Hell report from the Enough 
  Project........................................................    72


            THE QUESTIONABLE CASE FOR EASING SUDAN SANCTIONS

                              ----------                              


                       WEDNESDAY, APRIL 26, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    Good afternoon, everybody, and welcome and thank you for 
being here. We will be joined shortly by Ranking Member Bass 
and other members of the subcommittee but we do have votes 
scheduled for 3:15. There will be a brief break for that. Then 
we will come back and conclude the testimonies from our 
distinguished witnesses.
    For most of the 37 years that I've been in Congress, the 
House and Senate have been heavily involved in U.S. policy 
toward Sudan. For example, I've chaired 12 congressional 
hearings including two markups on Sudan since 1996.
    My first hearing focused on child slavery in Sudan and we 
actually had witnesses who had been slaves there and many 
others--NGOs who spoke of this egregious practice--followed by 
genocide hearings in the Darfur region, the persistent bombing 
of people in the Nuba Mountains, the Khartoum government's 
failure to abide by the 2011 agreement that created an 
independent South Sudan, and, of course, myriad human rights 
violations and the government's historic relationship with 
terrorist groups.
    The Sudanese Government has long sought sanctions relief in 
Congress and successive administrations have considered such 
relief as an incentive for Khartoum to reach and abide by 
various peace agreements.
    When I, joined by Greg Simpkins, our staff director, 
personally met with President Bashir in Khartoum in August 
2005, I spoke about Darfur refugees and visited two of the 
refugee camps, Mukjar and Kalma camp, and spoke almost 
exclusively during the 1\1/2\ hour plus meeting about ending 
the violence. President Bashir, on the other hand, focused 
almost exclusively on sanctions relief.
    The Obama administration, in its last days in office in 
January, purported to see justification in ending a sanctions 
regime built over decades. In its announcement on the easing of 
sanctions, the Obama administration declared positive actions 
by the Sudanese Government in five key areas. One, rebuilding 
counterterrorism cooperation; two, countering the threat of the 
Lord's Resistance Army; three, ending negative involvement in 
South Sudan's conflict--one of our witnesses will testify later 
negative involvement was never really defined; four, sustaining 
a unilateral cessation of hostilities in Darfur, South 
Kordofan, and the Blue Nile provinces; and five, improving 
humanitarian access throughout Sudan.
    Missing in this list of positive developments are 
improvements in the overall human rights situation in Sudan 
including and especially sex and labor trafficking, and I would 
remind our friends who are here at this hearing and my 
colleagues, Sudan is a Tier 3 country on the State Department's 
list. So it is an egregious violator and the narrative in the 
report is an indictment, frankly, of both sex and labor 
trafficking.
    On religious freedom, Sudan continues to get a failing 
grade as well from the State Department and has been 
designated, again, a country of particular concern, or CPC, 
which subjects it to other sanctions.
    It is well within the government's ability to meet the 
standards in the five areas mentioned and I would hope other 
areas as well if it truly has the will to do so.
    However, the Government of Sudan has never been known for 
its respect of the rights of those not considered Arab, such as 
Darfur residents, who were persecuted despite being largely 
Muslim, or Sudanese who were not Muslim at all.
    There was the case in 2014 of Meriam Ibrahim, a Christian 
woman sentenced to death by a Sudanese court for refusing to 
renounce her Christian faith. The court also ordered Ibrahim, 
who married a Christian man in 2011 and was 8 months pregnant 
when she was arrested and imprisoned, to receive 100 lashes for 
adultery because her marriage was considered void under Sharia 
law.
    The couple had a child, a 20-month-old boy, who was also in 
detention with her. Imagine that, a 20-month-old boy in 
detention next to her, behind bars.
    I joined with a group of House and Senate members including 
one of our subcommittee's members, Congressman Meadows, in 
working with elements of the Sudanese Government in the 
eventually successful effort to vacate the sentence and allow 
Ms. Ibrahim and her family to come to the United States.
    That effort demonstrated and perhaps highlighted that there 
are some elements of an internally divided Sudanese Government 
with whom we can work with toward a better future for Sudan's 
people.
    But it also confirms that other elements are viciously 
opposed to religious freedom and other fundamental human 
rights.
    The Obama administration's justification of its decision on 
sanctions relief was done in the absence of any congressional 
consultation and presented as a fait accompli.
    It freed more than $30 million in unfrozen Sudanese assets, 
allows commercial transactions in all sectors and singled a new 
policy of more positively reviewing licenses to do business in 
Sudan.
    Commercial transactions prohibited as a result of the 
Government of Sudan's designation as a State Sponsor of 
Terrorism and Darfur-specific targeted actions are still in 
place.
    The entire sanctions easing process will be fully effective 
6 months from the date of announcement, 6 months from January 
13th.
    Today's hearing is intended to begin asking the hard 
questions concerning sanctions relief in order to facilitate 
improved relations between the U.S. and Sudan if that will 
benefit the people of Sudan.
    Nevertheless, it's incumbent upon the U.S. Government to 
honestly consider the conditions under which sanctions easing 
is justified.
    As stated earlier, the Government of Sudan is fully capable 
of meeting the requirements outlined in the January Executive 
order but we must be sure of the extent to which that 
government is abiding by them and urge them to do more when 
necessary.
    Various reports indicate that attacks on civilians 
including, sexual-based violence, continues by government and 
allied forces.
    Even though human rights improvement is not one of the 
requirements in the Executive order by the former President, we 
must not as a government ignore this aspect.
    Successful administrations and Congresses have worked hard 
to ensure that human rights concerns in Sudan are addressed.
    And I would note parenthetically in this room back in the 
year 2000 I presided as chairman of this committee over the 
markup of the Sudan Peace Act.
    This has been a totally comprehensive and bipartisan effort 
over the years and, again, human rights is essential if we are 
to truly help the people of Sudan. Now is not the time to 
abandon decades of work, as I said, by men and women of good 
will in our Government and many American citizens who have 
supported our efforts.
    We must also not forsake the welfare of the people of Sudan 
for whom our efforts all this time have been made.
    If the Government of Sudan is indeed willing to work with 
us to fulfill the aspects mentioned in the executive order and 
improve the state of human rights in Sudan, then for the sake 
of the Sudanese people our Government should make the effort to 
work with them.
    But it will do the Government of Sudan and its people no 
good if we turn a blind eye to ongoing problems and fail to 
press for genuine improvements that are sustainable and that 
can be clearly demonstrated.
    As we await the appointment of the Trump administration 
officials tasked with making the ultimate decisions on these 
matters, the clock is ticking.
    We have assembled a panel of private sector witnesses who 
can give us an expert look, a picture, of the status and the 
adherence to the requirements outlined in the Executive order 
and human rights in Sudan. We do not have a witness that is 
involved in humanitarian activities--we asked a few--because of 
their concern, and it's a justified concern, had they spoken 
out and done so with the candor that they would do that that 
could limit their ability to do business and to provide 
humanitarian relief inside of Sudan.
    This hearing is only the beginning of Congress' 
investigation into the matter. By July 12th, when the sanctions 
easing regime fully comes to fruition or into effect, we hope 
to know whether there is sufficient justification to approve 
this action or whether more work needs to be done.
    So this is a timely hearing, I believe. Again, we have a 
panel of truly remarkable witnesses who are extremely 
knowledgeable and for that I am very grateful for you being 
here today.
    And I'd like to yield to my friend and colleague, the 
ranking member, Ms. Bass.
    Okay. I'll yield to Mr. Garrett.
    Mr. Garrett. Very briefly, Mr. Chairman, I just wanted to 
take this opportunity to articulate my concurrence with your 
assessment of the situation but also to note the progress 
that's been made on a case that somewhat parallels that of 
Meriam Ibrahim and that being the case of Czech pastor Petr 
Jasek as well as two Sudanese counterparts, Hassan Abduraheem 
and Abdulmonem Abdumawla, who are currently held in the 
Republic of Sudan.
    I will say that my experience working directly with Maowia 
Khalid, the Ambassador of the Republic of Sudan to the United 
States, has been extremely fruitful and that the Sudanese 
representation here in Washington has been very forthcoming and 
cooperative as it relates to our concerns in this instance and 
we look forward to a positive outcome in those cases.
    That notwithstanding, obviously, there are any number of 
steps to be taken, moving forward. But I do believe and I want 
to articulate that establishing good faith and positive working 
relationships will actually help facilitate progress as Sudan 
works to move itself back into the mainstream of nations.
    And with that, I would yield back my time and thank you.
    Mr. Smith. I would like to yield to Mr. Suozzi.
    Mr. Suozzi. Mr. Chairman, I am just waiting to listen to 
the witnesses. Thank you.
    Mr. Smith. Mr. Donovan.
    Mr. Donovan. Thank you, Chairman. I just wanted to thank 
you for conducting this important hearing. With votes coming 
sometime within the next 20 minutes I'll yield my time for the 
witnesses.
    Mr. Smith. Thank you very much, Mr. Donovan.
    I would like to welcome our witnesses to the witness table, 
beginning first our witness up will be Ambassador Princeton 
Lyman. He's a senior advisor to the President of the United 
States Institute of Peace.
    He served as U.S. Special Envoy for Sudan and South Sudan 
from 2011 to 2013. As Special Envoy, he led U.S. policy in 
helping in the implementation of the 2005 Comprehensive Peace 
Agreement. His career in government has included assignments as 
Deputy Assistant Secretary of State for African Affairs, U.S. 
Ambassador to Nigeria and South Africa and Assistant Secretary 
of State for International Organizations.
    He began his government career with USAID and served as its 
director in Ethiopia. He has testified several times before 
this subcommittee. We always are so glad to welcome him back 
and to welcome his insights and his wisdom.
    We will then hear from Mr. Brad Brooks-Rubin, who serves as 
the policy director for The Sentry and as policy advisor to the 
Enough Project. In this capacity, he helps to lead the efforts 
of The Sentry to disrupt the corrupt networks that fund and 
profit from genocide or other mass atrocities in Africa. From 
2009 to 2013, Mr. Brooks-Rubin served as the Special Advisor 
for Conflict Diamonds in the United States Department of State.
    While there, he also contributed to the U.S. efforts 
related to conflict minerals in eastern Congo, particularly in 
the area of corporate due diligence.
    Prior to joining the Department, he served as an Attorney-
Advisor in the Treasury Department's Office of the Chief 
Counsel on Foreign Assets Control.
    Then we will hear from Mr. David Dettoni, who is the 
director of operations for the Sudan Relief Fund and the 
managing director of TSA, a German-based organization, created 
to assist the lives of the people of Africa, particularly the 
people of Sudan and South Sudan.
    Previously, he was director of operations and outreach at 
the U.S. Commission on International Religious Freedom and a 
senior legislative assistant to Representative Frank Wolf. He 
assisted Chairman Wolf in foreign policy, national security, 
and global human rights initiatives and was co-staff director 
of the Congressional Human Rights Caucus.
    And then we will hear from Mr. Mohamed Abubakr, of the 
African Middle Eastern Leadership Project. He's a human rights 
activist with more than a decade of experience in the nonprofit 
sector.
    He has founded and served as director for multiple NGOs 
focused on humanitarian relief, human rights, youth 
empowerment, and peace programs across the Middle East and 
Africa. He has been hosted by many universities to address 
students on a variety of topics.
    In 2016, he launched the African Middle Eastern Leadership 
Project, or AMEL, the Arabic word for hope, a U.S.-based 
nonprofit organization that seeks to empower young leaders from 
the Middle East and Africa to build pluralistic societies.
    Ambassador Lyman, please proceed.

 STATEMENT OF THE HONORABLE PRINCETON N. LYMAN, SENIOR ADVISOR 
       TO THE PRESIDENT, UNITED STATES INSTITUTE OF PEACE

    Ambassador Lyman. There we go. Thank you very much, Mr. 
Chairman, Ranking Member Karen Bass, other members of the 
subcommittee.
    This subcommittee has, over the years, been extraordinarily 
attentive to the issues of Sudan and South Sudan. For those of 
us who work on it, we are very grateful and I know you've had a 
major impact on the thinking and the policies in this area.
    Mr. Chairman, nothing is easy when it comes to policy for 
Sudan. It's not a nice government. It's a government that has 
committed major violations of human rights. It restricts free 
speech and assembly. It has resisted democratic reforms. It has 
carried out actions against its own people in many parts of the 
country. Indeed, since its independence it has been ruled in a 
system by various governments where power and wealth is at the 
center and the outlying areas are marginalized either through 
warfare, co-optation or both.
    And at the same time, Sudan is a major country in this 
area--not just in the Horn, but in northern Africa, in the 
Sahel and in spite of the sanctions over many years and over 
attempts by rebels to overthrow it, this government is not 
collapsing. The future of Sudan is very much in its hands.
    So how do we reconcile these things? How do we reconcile 
and deal with this almost dilemma? The fundamental problem, in 
my view, Mr. Chairman, is that this government has to at some 
point find its way to the path of reform without thinking that 
that's a zero sum game--that it's not afraid to undertake the 
kind of reforms that would bring peace, prosperity, and 
democracy to the country.
    Other autocratic regimes have done this. South Korea did 
it. South Africa did it. Spain did it. Indonesia did it.
    Right now, there are some people in the Government of Sudan 
who recognize there are a lot of people who don't or don't want 
to or think the task is too great--the risks are too great.
    So what do we do? Where is our role in this? We have 
leverage. We have leverage because of sanctions.
    As you pointed out, Mr. Chairman, it's a big issue for the 
Government of Sudan. But sanctions are only leverage if they 
are not static--if they are used--if they are part of a 
process.
    Now, I realize that, as you pointed out and I know our 
witnesses--very, very knowledgeable people--will indicate the 
imperfections not only in this situation but the limitation of 
the tracks that you mentioned.
    We are talking about--I won't comment on the intelligence 
one--I don't have the information on that--the Lord's 
Resistance Army--unfortunately, both Uganda and the United 
States are pulling back on that.
    But the two that are most controversial are the limited 
amounts of progress on humanitarian access and the peace 
process--the cease fires.
    But I look at this differently. I look at this as a very 
limited opening of a dialogue. We haven't had a dialogue on 
these issues since 2013.
    They closed it off after the end of the South Sudan 
independence, and we have and the administration have to work 
hard to open it.
    It's limited on both ends. It isn't the big road map all 
the way to perfect relations. We have tried that in the past. 
Too difficult, too complicated, too many variables.
    It starts limited five tracks that have a lot of 
limitations. But the sanctions are also limited that are being 
lifted.
    Yes, they open up some trade and they do a number of 
things. But they are not going to lead to a lot of investment 
in South Sudan. There are too many variables. It doesn't 
include debt relief. It doesn't include State Sponsor of 
Terrorism. It doesn't include all the legislative sanctions 
which are in place. So it's limited on both ends and the 
Sudanese, they know that, too.
    So the question is where do we go with this dialogue? 
Obviously, you want them to at least perform on the five tracks 
that are put out there.
    But the big question, which you've raised, Mr. Chairman, 
and others have talked about, is how do you get to the other 
issues--the human rights issues, the real peace process 
issues--and that, to me, is what we should be working on for 
past July, whether they, hopefully, make these and what comes 
next and what degree of sanctions additional otherwise one 
might move? It has to include human rights and freedom of 
assembly. It has to open that door to dialogue and further work 
on the peace process.
    I would just make two other points. We forget the role of 
the opposition. They are players here and they control the 
agenda as well.
    The Darfur opposition is in disarray. Its leaders are all 
in Paris. The SPLM-North is having a split. They have put 
restrictions on humanitarian access that I do not find logical.
    They are part of the process. They have to agree to 
cooperate as well and I think we have to give attention to them 
and what their positions are--listen very carefully, because 
they have a right to be suspicious, but at the same time 
question where we think they are wrong.
    I would make one other recommendation, Mr. Chairman. We 
have a lot of restrictions on our USAID program in Sudan. It 
can work in humanitarian areas. Its development areas are only 
along the border in very limited areas.
    Supposing you gave USAID a little more freedom, a little 
more flexibility, so that these sanctions which allow more 
medicine, more agricultural inputs to come in, they could 
partner with NGOs in Sudan and other groups.
    Make sure that those goods are getting out to clinics in 
the outer area, getting out to farmers outside--they don't get 
concentrated at the center. So we are opening up the economic 
system at the same time we are opening up a little of the 
political system.
    So I see this as a first step, an opening. It's part of a 
dialogue. It's going to be a long way to go. It's more like 
Burma than others, and I think in that sense I think it's the 
right move even though it's fraught with all of the problems 
you raise.
    Thank you.
    [The prepared statement of Ambassador Lyman follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Smith. Thank you so very much, and without objection 
all of your full statements and anything you want to attach to 
it will be made a part of the record.
    Mr. Brooks-Rubin.

STATEMENT OF MR. BRAD BROOKS-RUBIN, POLICY DIRECTOR, THE SENTRY

    Mr. Brooks-Rubin. Thank you. Chairman Smith, Ranking Member 
Bass, members of the subcommittee, thank you for holding this 
important hearing and providing the Enough Project and our 
financial investigative initiative, The Sentry, with the 
opportunity to share our perspective on a country that has long 
vexed U.S. policymakers.
    As the chairman noted, Congress has a deep and bipartisan 
history of leading U.S. efforts to promote peace, human rights, 
religious freedom, and counterterrorism objectives in Sudan, 
and this is an absolutely critical moment for Congress to 
continue that engagement.
    It is a critical moment because this past January, as has 
been noted, in the waning moments of the last administration an 
all-or-nothing choice on economic sanctions on Sudan was 
created--either maintain the 2-decades-old comprehensive 
sanctions or lift them entirely.
    This false choice came out of a limited five-track 
engagement plan developed in mid-2016. This plan is 
insufficient, as Ambassador Lyman also noted, because it 
doesn't address basic governance issues in Sudan, doesn't 
include crucial human rights and religious freedom issues, and 
removes the bulk of U.S. leverage without requiring any peace 
agreement for the multiple wars being waged today in Sudan.
    The far more sophisticated nature of the tools of financial 
pressure that are available today can be deployed in a much 
more nuanced way than sanctions on all of Sudan or no sanctions 
at all.
    Mr. Chairman, we believe Congress and the Trump 
administration must correct this course and do so now by 
developing a delinked and independent human rights and peace 
track with the Government of Sudan that would supplement but 
remain independent of the five tracks.
    This new track should focus on the United States' most 
pressing policy goals for Sudan: Advancing human rights, 
religious freedom, essential democratic reforms, good 
governance and, ultimately, a comprehensive peace.
    Without addressing these goals, the Government of Sudan 
will maintain its longstanding patterns of behavior, advancing 
policies that have led to continuous deadly wars, religious 
persecution, dictatorship, mass migration to Europe, grand 
corruption, and affiliation with terrorist organizations that 
have marked its 28 years.
    Achieving the bold objectives in this new track will 
require tools that are more focused, sophisticated, and 
impactful than the dull instrument of comprehensive sanctions.
    Instead, we must use state-of-the-art financial pressures 
that target key elements of the regime and the corporate and 
banking networks that underlie it. The comprehensive sanctions 
in place now come from a previous era and were, as was noted by 
Ambassador Lyman, never robustly implemented.
    They nevertheless impacted the regime's ability to connect 
to the international financial system, especially in recent 
years, as sanctions enforcement triggered by a different 
program, Iran, caused global banks to review their systems and 
realize they were still banking Sudan through the correspondent 
banking network.
    Rather than giving up on this renewed leverage now, 
Congress should adopt legislation that ties a new suite of 
modernized financial pressures as well as appropriate 
incentives to the new human rights and peace track.
    The pressures we propose are not just a few more sanctions 
or variations on the broad measures of the past. It is a 
fundamentally different approach, shifting from one that is 
geography-based to one that is conduct-based and using both 
sanctions and anti-money-laundering measures.
    In this new approach the measures would focus solely on 
individuals and entities that are responsible for major human 
rights abuse, grand corruption, religious persecution, conflict 
gold trading, weapons exporting, and undermining the peace 
process. These are the economic sectors that provide the regime 
its lifeline and the types of conduct that are most 
problematic.
    So that is what we should target. Unlike the past, we 
should not just use the broadest of measures or try to pick a 
few names and never update them as they morph into new 
entities. We need to use the best financial intelligence 
available, which our initiative, The Sentry, will help provide, 
so as to achieve our foreign policy objectives and protect the 
integrity of the U.S. financial system.
    For example, entities in Sudan like the National 
Intelligence and Security Service operate in ways not unlike 
entities the United States has targeted in Iran.
    In addition, conflict-affected gold and weapons exports 
provide much needed off-budget cash that is used to sustain 
violence and line the pockets of corrupt elites who have 
transformed the Sudanese economy into a private domain for 
their own enrichment.
    The United States knows now to target these kinds of 
systems. OFAC, FinCEN, and the State Department have done so in 
relation to Iran, Russia, and Burma, to name a few. We just 
need to be willing to do it with Sudan.
    Taking this course would be in stark contrast to the five 
tracks, which I will address very briefly. As my colleague, 
Omer Ismail, recently described in testimony before the Lantos 
Commission, some of the violence in Sudan has eased, in part 
due to the evolving nature of the use of force in conflict 
areas, and we note that Sudan has demonstrated restraint with 
respect to South Sudan and likely continued its 
counterterrorism cooperation.
    At the same time, as Omer and many others have testified, 
the restraint in some areas contrasts with continued violence 
in the conflict zones. There have been numerous violent attacks 
on civilians in Darfur.
    Government fly-overs continue to threaten people in South 
Kordofan including the Nuba Mountains. Worse, while the 
Government of Sudan is allowing cross-border humanitarian 
access to areas in South Sudan affected by famine, parts of 
Blue Nile and South Kordofan remain restricted.
    Acknowledging both progress in areas where the five-track 
plan benchmarks are unmet, we believe two things should happen. 
The interagency assessment process should continue and an 
honest assessment made in July.
    Our expectation is that the five tracks will remain 
unfulfilled when viewed as an entire package because at least 
two of the five tracks will not be in compliance.
    If the government is indeed noncompliant on any of the 
tracks, then the final step of complete removal of the 
comprehensive sanctions should be delayed for a sufficient 
period such as 1 year.
    In addition, in response to the violence in Darfur and as a 
way of reinforcing the need for serious engagement on all five 
tracks leading up to July, the administration should use its 
authority under the Darfur sanctions, which are not part of 
this plan, to impose asset freezes on those responsible for the 
violence.
    As with other sanctions programs connected to serious 
negotiations, the administration should tighten pressure along 
the way to reinforce those objectives while also providing 
relief.
    In the end, the fate of the five-track plan and the 
comprehensive sanctions should be a lower priority because it 
creates a false policy choice--comprehensive sanctions or 
nothing over benchmarks that do not fundamentally alter the 
nature of a regime that has wrought havoc within Sudan and the 
region for nearly three decades.
    Mr. Chairman, members of the subcommittee, Congress should 
take the lead in designing a clear U.S. policy approach, one 
that deploys the types of modernized pressures that can 
generate meaningful leverage for creating real and lasting 
change in Sudan through a human rights and peace track.
    Thank you for the opportunity.
    [The prepared statement of Mr. Brooks-Rubin follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                      ----------                              

    Mr. Smith. Mr. Brooks-Rubin, thank you so much for your 
testimony, and Enough over the decades has been ever pressing 
for a better Sudan and I want to thank you for your insights 
today.
    I would like, before we take a brief recess, to catch those 
three votes that are on the floor. We have been joined briefly 
by Dr. Oscar Biscet, one of the greatest human rights defenders 
in the world, who has spent years in the gulag in Cuba.
    He was in solitary confinement many times. He's an OB/GYN, 
a medical doctor, and a group of us some years back nominated 
him for the Nobel Peace Prize because of his extraordinary work 
and his courage.
    So I want to just acknowledge him and thank him for his 
leadership for so many, many years and now that he is free I 
would point out that he testified twice before our 
subcommittee. One time he did it after he was under house 
arrest.
    He did it by way of phone hook-up at great risk to himself 
while he was still in Cuba and he testified before this 
subcommittee and made a very, very strong and powerful 
statement on behalf of human rights. Thank you, Doctor, for 
being here.
    Again, I apologize to our two witnesses. We will come right 
back. It should only be about 15 minutes. Then we should have a 
big open time to get into Q and A. Thank you. Stand in recess.
    [Recess.]
    Mr. Smith. The subcommittee will resume its hearing and Mr. 
Dettoni, I believe you're next.
    Again, I apologize for the delay but we should be clear for 
the entire hearing now.

 STATEMENT OF MR. DAVID DETTONI, SENIOR ADVISOR, SUDAN RELIEF 
                              FUND

    Mr. Dettoni. Chairman Smith, Ranking Member Bass, other 
members of the subcommittee, I want to thank you for your long, 
long service on human rights in Africa.
    Both of you, I know you've been very involved and your work 
here, as I wrote in my written testimony, your constituents may 
never know all the lives and the impact that you're making in 
the world and I just wanted to thank you for all the service 
that you're doing.
    We've already mentioned or other people have already 
mentioned the five areas that are in the sanctions that the 
Obama administration temporarily lifted in January 2017, and 
I'm just going to run through those real quickly and then 
address my views on if those are a valid rationale and then try 
to focus on some recommendations for Congress and the Trump 
administration.
    First, on the issue of enhancing cooperation on 
counterterrorism, I have to say I think that my view is 
probably simplistic and I know it's hard line, but the sins of 
Bashir and the regime, I just don't see how those sins can be 
forgiven.
    They hosted al-Qaeda for several years. Attacks occurred on 
our Embassies in Tanzania and Kenya. Thousands of American 
lives have been ended because of Khartoum and Bashir's material 
support for terrorism, and this isn't even half the story on 
their support for terrorism.
    They need to be held accountable. You said at the beginning 
of this hearing in your opening remarks you've held countless 
hearings on human rights, peace, I mean, coming on 15, 20 
years.
    And so when are they going to be held accountable for these 
acts? And it's not like it's just another dictatorship around 
the world. These are people who are still in power, some out of 
power, who are anti-American, anti-Western and they have--they 
have--their actions have had an impact that are diametrically 
opposed to the interests of this country.
    So the first thing is, I know it's simplistic but I think 
that lifting the sanctions for cooperation on counterterrorism 
is not forgivable and I think that they need to be held 
accountable for their actions.
    The nature of this regime in Khartoum is that they kill 
their own people. They kill their own citizens. They don't even 
blink when they do it.
    They didn't blink when they were supporting terrorism or 
whatever they are still doing or not doing and they haven't 
blinked in killing women and children intentionally, 
particularly what I know about is in the Nuba Mountains, 
dropping bombs on schools, hospitals, churches.
    I've seen them. There are holes in the roofs. Every school, 
every hut has a foxhole in it so that the children or the 
pastor or priest can run and hide into a foxhole.
    I was going to try to bring in some shrapnel from these 
bombs that have exploded and that have killed innocent people, 
and I didn't want to bring it in because I didn't know if I'd 
be able to get it through and have the hassle of it.
    But I've got them. Bombs drop and if you're not in a 
foxhole and you're within 100, 200 meters of this thing, it's 
going to spin hundreds of miles an hour and it's going to cut 
off your head, cut off your arm, go right through you.
    That's the reality of what they are doing to their own 
people and that's the reality of the nature of this regime.
    They are still in power, and I know it's a simplistic view 
but that's the reality of what they have been doing up until 
very recently and they can do again, and to their own citizens.
    On the issue of humanitarian access, particularly in the 
two areas, to my knowledge, Khartoum has not allowed a single 
piece of humanitarian assistance into the two areas. People 
haven't planted crops like they would when there is peace and 
stability.
    The people of Nuba have been attacked and invaded for over 
6 years now, since 2011. It's a war zone. So there is little 
food. There is no development. There is no building for the 
future.
    There are virtually no doctors. There is one surgeon in the 
Nuba Mountains. Woe to you if you get appendicitis and you 
can't reach Dr. Tom Catena, an American serving at Gidel 
Hospital.
    The humanitarian situation, particularly in the two areas 
which I know about, is dire and it's part of Khartoum's 
strategy, just like it was in the war with South Sudan, to deny 
the two areas humanitarian assistance.
    I will say this. I'll acknowledge one positive thing that 
I've seen Khartoum do and that is in an ironic twist they've 
allowed in South Sudanese, 100,000, 200,000 refugees, and they 
have a semblance of safety there. And as well, there are, I 
think, between 100,000 and 200,000 Eritreans who have fled the 
repressive regime in Eritrea.
    Now, Khartoum's doing this because it's in their interest. 
I don't think they are doing it because they think it's the 
right thing to do.
    But ascribing motives is neither here nor there, and the 
thing is, though, that they are, I think, using, particularly 
with the Eritrean issue, they are using us with the Europeans 
to stem the refugee flow and getting money and funding to keep 
the refugees in Sudan. So I think that they are gaining some 
benefit out of it as well.
    In the past several months, hostilities in the two areas 
has been greatly reduced. The aerial bombing, to my knowledge, 
has ceased.
    No major offenses or skirmishes on any sort of scale have 
occurred and both sides--the major sides involved, Khartoum and 
the SPLM-North, have restrained. However, there is no formal 
cease-fire.
    There are no mechanisms to enforce a cease-fire, no 
modalities, no observers except for maybe the United States 
with the sanctions that we have used as leverage, and the 
fighting and bombing can begin at a moment's notice.
    The Comprehensive Peace Agreement, I need to touch on that 
because we keep having hearings and talking about Sudan, 
particularly as it concerns the two areas. Khartoum did allow 
South Sudan to vote for independence. But on many other aspects 
of CPA they just clearly violated the Comprehensive Peace 
Agreement of 2005.
    In May 2011, Khartoum invaded Abyei, destroying, killing, 
looting, displacing over 100,000 Dinka, who are indigenous to 
Abyei. And now there is an Ethiopian peacekeeping force that 
are preventing any further outbreaks, hopefully.
    But that was a Khartoum--clear violation of the 
Comprehensive Peace Agreement and it included violence. The CPA 
provided for popular consultation for the two areas. The 
citizens of Abyei, as we know, were promised a referendum to 
decide which country they belong in.
    That hasn't happened. But the CPA provided for popular 
consultation for the people of the two areas. That hasn't 
happened. Instead, what happened?
    In May 2011, Bashir gave the SPLM-North 1 week to disarm 
their army and my understanding is that CPA provided for 1 year 
to integrate security and get security arrangements figured out 
between the SPLM-North and Khartoum. Instead, it was 1 week and 
then Bashir and his allies attacked and resumed the civil war, 
which has been going on within Khartoum and the two areas for 
almost 6 years now.
    From personal experience, the CPA provided for political 
participation and freedom of movement and assembly. When I was 
in Khartoum in 2011 when I was a staff member of the U.S. 
Commission on International Religious Freedom, several members 
of the transitional government and National Assembly were 
marching in a peaceful protest on the steps of the assembly to 
present their problems and their issues with the way the 
government was going.
    As we were going out to the refugee camps, we saw thousands 
of Interior Ministry troops coming their way and we learned 
later that the security forces had arrested these National 
Assembly members, beaten them up, kicked them, and we saw the 
bruises and we saw the impact upon this.
    And this was the beginning of the end of, to me in my mind, 
of implementation of the CPA, particularly as it regarded the 
two areas.
    So what are my recommendations for the new administration 
and for Congress? First, President Trump needs to appoint a 
high-level Special Envoy for Sudan and South Sudan.
    This person needs to have direct access to President Trump. 
The appointing ceremony should occur in the Rose Garden. 
President Trump should conduct a press conference.
    In his remarks he should note the expectation that the 
Special Envoy should travel to the Nuba Mountains, the two 
areas, Khartoum, Darfur, Juba, South Sudan, and Sudan.
    To my knowledge--correct me if I am wrong, Ambassador 
Lyman, no Special Envoy has ever traveled to the two areas to 
see for themselves the situation on the ground.
    I believe they've gone to Khartoum. They have never gone to 
the two areas. This needs to change. Second, the Trump 
administration needs to reset relations with South Sudan.
    As a signatory to the CPA and as a major stakeholder in the 
creation of South Sudan, the United States has a moral 
obligation to help the South move off the precipice of total 
collapse and President Trump having a personal relationship 
with President Salva Kiir might help to improve the conditions 
in South Sudan and the region.
    Despite being two independent countries, Sudan and South 
Sudan's futures are linked. The solutions to both political and 
civil war crises must be found and it's in our, America's, 
strategic and moral interest to bring peace and stability to 
the region and to these two countries.
    Third, within 6 months of today, President Trump should 
hold a regional conference in Washington, DC, and invite and 
have a have attend President Salva Kiir, the President of 
Uganda, the President of Kenya, the Prime Minister of Ethiopia 
and maybe a few others.
    Promote a unified agenda for peace, democracy, stability 
and security in the region and finding unified approaches to 
the problems in Sudan and South Sudan.
    Fourth, working with Congress, President Trump should 
either amend the January 2017 Executive order lifting some 
sanctions or ask Congress--the President should ask Congress to 
draft legislation, or you should just draft it on your own, 
concerning sanctions on Sudan.
    President Trump, or legislation, should make a lifting of 
sanctions reviewable every 180 days or annually, as was 
suggested earlier, and there should be a requirement the 
executive branch must submit to Congress in writing and to the 
President a rationale review for action on sanctions toward 
Sudan.
    Such a review should be publicly viewable 2 months before 
the sanctions should be lifted and it should be written such 
that the sanctions are not automatically lifted if the 
President doesn't take action, like they are right now.
    These sanctions, my understanding, will be automatically 
lifted unless the President revokes them or does something to 
them. The stoppage in the fighting in the two areas has been a 
positive development and needs to be sustained and a sustained 
lull can create an environment and a situation more conducive 
to lasting peace.
    Now, a basic question is why Khartoum has to do something 
in their own interest in the sense of making a peace deal and 
ceasing to fight and kill its own people.
    But if a few select sanctions can be waived 180 days or a 
year and it keeps the fighting down and they are negotiated in 
good interest I think it's worth trying.
    Fifth, the chairman of the full committee, the ranking 
member, the chairman, other members, should request a 
classified briefing from relevant agencies on Sudan's 
counterterrorism assistance to the United States.
    In that same briefing, the agencies should provide a report 
detailing the involvement of Khartoum and the extent of 
Khartoum's meddling and past activity and present activity in 
South Sudan and the region.
    After receiving this briefing then you could ask those 
agencies to give the same briefing to other members of the 
committee and other Members in the Senate and the Congress.
    I want to give President Trump and his team an opportunity 
to build on the fact that the fighting in the two areas has 
ceased and the fighting can begin at a moment's notice.
    The region is waiting to see how President Trump will lead 
and the new Congress will lead and amend, change direction or 
build upon the work from previous administrations.
    We want to give President Trump the ability to lead in this 
volatile region and my belief that--of limiting the lifting for 
a little bit of time could lead to a certain transparent, 
reviewable and certifiable process that involves the Congress 
and congressional approval and might provide leverage and 
better behavior from Khartoum.
    My hope is for the President to become personally engaged 
in the peace process in the Sudans and for the President to 
develop a personal relationship with our allies in the region.
    I believe it's in the interests of the United States. I 
believe it's in the security interests of the United States to 
use the resources and leverage of American power to promote 
peace, prosperity, and freedom in this troubled region.
    Thank you.
    [The prepared statement of Mr. Dettoni follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony, 
recommendations, and for going there so frequently to be a 
first-hand witness. Thank you.
    Mr. Abubakr.

STATEMENT OF MR. MOHAMED ABUBAKR, PRESIDENT, THE AFRICAN MIDDLE 
                   EASTERN LEADERSHIP PROJECT

    Mr. Abubakr. Ranking Member Bass and members of the 
subcommittee, thank you for affording me the honor to testify 
before you today and to share my personal observations 
regarding the impact of sanctions on the ground in Sudan.
    My goal is to provide you with evidence that you need to 
act. You have statistics and you have social aggregate data and 
you have----
    Mr. Smith. If you could just suspend for 1 minute and I 
apologize for the rudeness of it. But Mr. Garrett does have to 
leave I believe to meet with the Japanese Ambassador but really 
wanted to just express a few thoughts and maybe ask a question 
and then we'll go right back and take as much time as you want.
    Mr. Garrett. Sure, and I apologize specifically to you, Mr. 
Abubakr, because I'd love to--I need to hear what you say. I'm 
going to take the testimony and notes back with me.
    This is a very important subject to me by virtue of some of 
the activities that we've engaged in that we alluded to earlier 
as it relates to the release of some prisoners currently held 
in the Republic of Sudan.
    And I really want to also tip my hat to you, Mr. Dettoni, 
Mr. Brooks-Rubin as well, Ambassador. Your boss is Frank Wolf, 
or your former boss, is a really fine man who I think served 
Virginia and our Nation very well and it was my honor to count 
him among a distant circle of friends.
    What I heard here, and I would welcome the input of anyone, 
what I wanted--maybe I heard what I wanted to hear. My efforts 
reaching out to the Embassy, the Ambassador and the Republic of 
Sudan's delegation here in the United States have been, 
obviously, with a clearly articulated goal and that is to win 
the freedom of these individuals and even if it means that they 
leave the nation.
    We've obviously engaged in a relatively one-size-fits-all 
series of sanctions and certainly for well-articulated reasons 
here today. The question that I have is, and I think you 
touched on this toward the end of your testimony, if we might 
not be well advised to try to find that carrot as opposed to 
the stick, even in very limited measures.
    What I've seen in my very micro-interaction is a desire for 
an improvement in relations, a willingness to be accommodating 
as it relates to moving in directions I think we would all find 
desirable where they feel it's in Sudanese interests, right.
    And I understand human nature is motivated by I'm willing 
to do this if it's the right thing to do and there's something 
in it that helps me and my nation. I think I've seen that and I 
hope--obviously, President Bashir has been there for a long 
time and, certainly, for 11 years in one iteration and since, I 
guess, 1989 as President.
    But with the cessation of active hostilities and certainly 
the dialogue that I have heard that the good-faith comments 
that have been made to me might it not make sense to slowly 
start to roll back sanctions and see if we don't see 
commensurate continued behavior?
    I understand the history and certainly Darfur is something 
that the world can't turn a blind eye to. What does that mean 
in the Nuba Mountain region we don't even know.
    But might it not make some sense to try to sort of give a 
little to see if we can get something that's in everyone's 
collective best interest? And Mr. Brooks-Rubin, you, I think, 
are moving to speak.
    Mr. Brooks-Rubin. Thank you, Representative Garrett.
    I think your point is well taken. I think the important 
issue to note is that that's--in some ways that's a five-track 
process that's been put on the table.
    The comprehensive sanctions and the five-track process, 
unless it's completely amended and tossed aside, and we are 
recognizing that that process is underway, when that is 
completed at whatever point, and those tracks should be 
honestly assessed, but at whatever point that happens the 
comprehensive sanctions that are in place now being lifted, 
that's a significant carrot.
    That is a significant development. That takes away all of 
the restrictions that are in place now with respect to imports, 
exports----
    Mr. Garrett. I'm not trying to be rude. My understanding is 
that we anticipate the lifting of the sanctions based on the 
actions of the previous administration if the current 
administration agrees to it and that's all up in the air.
    What I think Mr. Dettoni, and I'm not trying to argue with 
you because I think we're on the same page here, suggested is 
if this is done in a sort of progressive step-by-step fashion 
it's--let me paraphrase a better political figure than myself, 
trust but verify--that if we give to the Sudanese things 
helpful to the Sudanese and continue to do so so long as they 
behave in a manner such that we find to be more consistent with 
the spirit of human rights, then everybody wins, right?
    My experience, in a vacuum, has been wonderful. But I know 
there's a whole lot bigger world out there.
    Mr. Brooks-Rubin. Yes, I----
    Mr. Garrett. But it was an all or nothing, more or less, 
right?
    Mr. Brooks-Rubin. Correct.
    Mr. Garrett. The previous administration said this is what 
we are going to do. We are on a 6-month clock right now.
    Mr. Brooks-Rubin. It's all or nothing in terms of the 
sanctions for what is a limited set of actions by the 
government. I think what we are--what all of us are saying in 
different ways is we need to get the important issues, the key 
issues of peace, human rights, religious freedom on the table 
and then let's--that's what we need real incentives for and 
there are other incentives that are still on the table, as 
Ambassador Lyman noted, with respect to debt relief and State 
Sponsored of Terrorism.
    But our view is if you're going to put really the rest of 
the issues on the table, those core issues of human rights and 
religious freedom, that can't just be without pressure.
    There also need to be a different level of pressure to get 
there and so it's a different idea around what those sticks 
are. The stick we have now is a big blunt club from 20 years 
ago.
    Mr. Garrett. Right.
    Mr. Brooks-Rubin. Let's come in with more precision-guided 
tools that can get there.
    Mr. Garrett. And so we say show me and what I've heard is, 
and again, I am looking at a tiny little slice--we want to show 
you.
    And I think--if I can build on that for a moment--if you 
look at the--certainly, there are self-inflicted causes for 
your famine in the South Sudan but if you look at 
infrastructure and who has access to the Red Sea and ports, et 
cetera, and rail facilities, albeit ones in dire need of some 
maybe U.S. assistance if everything goes well, it would help us 
to have a good relationship with the Sudan to get the food to 
the places that don't have----
    Mr. Smith. If you could just, out of respect for Mr. 
Abubakr. I know you have that----
    Mr. Garrett. Yes, sir. And I apologize to Mr. Abubakr.
    Mr. Smith. And I would ask all of you to circle back to the 
questions, and they are great questions, that Mr. Garrett has 
asked. But we'll maybe complete Mr. Abubakr's testimony, then 
come back----
    Mr. Garrett. Well----
    Mr. Smith [continuing]. Because I know you have answers to 
these questions.
    Mr. Garrett. But I guess if the Sudan plays ball, to use a 
colloquialism, it would be in the best interests of the entire 
region by virtue of just the ability to distribute food, et 
cetera.
    Mr. Smith. I think it----
    Mr. Garrett. You can nod----
    Mr. Smith. Okay. Go ahead.
    Mr. Garrett [continuing]. Shake your head no.
    Mr. Dettoni. I don't want to be--I don't want to interrupt, 
Mr. Chairman, and you haven't spoken so maybe we can talk in 
private about this, not on the record.
    Mr. Garrett. I would invite you, anybody at the table to 
reach out to our office. I would love to speak with you, and I 
apologize, Mr. Chairman.
    Mr. Smith. And for the record, come back and answer those.
    Mr. Dettoni. Sure. Sure.
    Mr. Smith. Mr. Abubakr. Thank you.
    Mr. Garrett. Thank you. I am sorry.
    Mr. Abubakr. My goal is to provide you with evidence that 
you need to act. You have statistics and you have social 
aggregated data and you have political knowledge.
    What I want to give you is my story. My name is Mohamed 
Abubakr, civil and human rights activist from Khartoum, Sudan, 
born and raised.
    Inspired by the Universal Declaration of Human Rights, I've 
done the best I could to be there for those deprived of these 
rights the most, at an early age too, as Sudan has that 
tendency to force children to grow up way before they should, I 
grew up and spent most of my adult life in a comprehensively 
sanctioned Sudan.
    It wasn't an easy experience by any means. As a citizen I 
struggled and as a student I suffered. The unintended 
consequences of sanctions that plagued the program put a heavy 
load on the average citizen of Sudan and an even heavier load 
on the back of civil society in Sudan and, specifically, on 
those of us in the humanitarian and human rights sectors.
    Despite the exceptions made for organizations working in 
this space, while I personally have been outspoken about these 
unintended consequences and joined the calls for reformation 
and modernization of the U.S. sanction policy, I did not for a 
second doubt the importance of having them in place, or the 
rationale for their imposition. It wasn't hard to notice the 
strong correlation between the regime's financial comfort and 
violence.
    So against many of our personal interests, citizens and 
civil society, we supported the sanctions. We believed they 
were about bringing positive change and transformation of the 
human rights scene in Sudan, and holding on to the hope for the 
light at the end of the tunnel we fully complied and fully 
backed the sanctions.
    So you can imagine the deep sense of sadness and betrayal 
widely shared by many upon hearing about the U.S. intentions to 
ease sanctions and on these conditions--conditions that 
completely ignored the human rights and for the citizens of 
Sudan who suffered in silence for so long.
    In my written statement, I argued against the rationale for 
easing sanctions against Sudan and whether sanction relief was 
warranted to begin with, and I argued against each of the 
conditions set forth by the U.S. Government for the easing of 
sanctions.
    I argued against the legitimacy of Sudan as a partner in 
the war against the Lord's Resistance Army and its methods 
while the Government of Sudan and affiliated militia are still 
engaged in recruitment of children in the exact same fashion.
    And I argued against Sudan being a part of the solution to 
the South Sudan crisis as that situation in that violent 
kleptocracy needs a serious international long commitment in 
building South Sudan's nonexistent institutions.
    But none of that is as important as what I am about to say. 
After the European Union recently dropped the ball on its 
commitment for human rights by striking an ethically and 
morally questionable deal to stop the African refugees and 
economic migrants hailing from Africa to reach Europe and hired 
the very same Janjaweed militia that killed hundreds of 
thousands of people in Darfur, now rebranded as the Rapid 
Response Force, there is absolutely no other champion left in 
the corner of those of us in Sudan fighting for human rights 
and dignity for the human of Sudan.
    The flame of hope is fading away and the way I see it it's 
up to the United States and up to this committee to keep that 
flame alive.
    I see my time is running up and allow me to close my 
remarks for this.
    Mr. Smith. Don't rush it.
    Mr. Abubakr. In the process of thinking what to do with 
Sudan and thinking of what conditions could have been better 
for sanctions relief, please put yourselves in the 
uncomfortable shoes of an activist for human rights or a 
journalist who dared to speak truth to power, one of the 
thousands and thousands unlawfully arrested, tortured, and 
worse.
    Think of what would make things better for them and others 
like them. Think of me and the thoughts coming through my head 
right now and the scenarios and the very plausible scenarios 
playing in my head as we speak about the consequences of me 
coming here today, for me and for people I care about and love 
back home.
    It certainly would have been nice if the conditions for 
sanctions relief included language that would make me feel a 
little less worried and a little more at ease.
    Thank you so much.
    [The prepared statement of Mr. Abubakr follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Thank you.
    Ms. Bass.
    Ms. Bass. Well, let me thank all of you for your testimony 
today and also for your patience.
    I wanted to get a sense from maybe Mr. Brooks-Rubin when 
the Obama administration was determined to ease sanctions. If 
you could talk about the benchmarks that they saw. In other 
words, we are going to back up a little bit and this is what we 
expect to see from Khartoum. And then from Mr. Abubakr, you 
were describing what life is like with sanctions and maybe you 
could pose some alternatives; if we continue along the 
direction we are how do we get the regime to move?
    Mr. Abubakr. I absolutely encourage reengagement with 
Sudan. It is not something that I'm opposed to, essentially. I 
really don't think the comprehensive sanctions is the way to go 
and that complete boycott is the way to induce any change.
    I do believe, though, the modernized sanctions model put 
forth by the Enough Project could be a very effective way to go 
and reengage with Sudan.
    I also believe when and if sanctions relief is warranted it 
should be completely human rights-based as that's, I think, in 
my opinion, the way to get to any other interest of the United 
States in the long term.
    Reengaging right now on these sanctions, I'm afraid, will 
just leave the humans of Sudan behind for the very long run and 
I'm afraid nothing will ever change should these sanctions be 
removed on these conditions.
    Ms. Bass. Thank you.
    Mr. Brooks-Rubin.
    Mr. Brooks-Rubin. Thank you, Representative Bass, and I 
think those are the issues that in some ways we would want to 
see in benchmarks for any comprehensive listing of sanctions is 
addressing exactly the issues that Mohamed and the other 
witnesses have testified to.
    I think the issues with the five-track plan were that there 
weren't clearly established benchmarks. You had five tracks 
that were laid out, obviously, on counterterrorism. That's 
something that is, unless the classified briefing is held that 
Mr. Dettoni referred to for you, this is not something that 
anyone's going to have an insight into.
    As to the other tracks, the Executive order says that 
progress needs to continue. But that's not defined, and in 
terms of understanding from the interagency what they're 
looking for, it's still an amorphous sense.
    So understanding what continued progress on cessation of 
hostilities or humanitarian access is leaves too much to the 
eye of the beholder and this is a regime and these are issues 
that cannot be subjectively evaluated in exchange for a much 
larger peace.
    If we had established sanctions relief that was measured, 
some small piece of the existing sanctions regime in exchange 
for some progress on these benchmarks, then there may have been 
a different discussion.
    But you ended up with limited pieces of the issues mostly 
regionally focused, questionable progress on at least two of 
them, in exchange for what is at least the entirety of the 
economic sanctions program administered by the Treasury 
Department.
    Without benchmarks, without clear steps that need to be 
met, it is impossible, really, for others to engage and really 
assess that well, which is, I think, why many are calling for 
this extension, at least on the five-track plan.
    But from our perspective, wherever that five-track plan 
ends up, really, what's important are the big piece human 
rights issues that all of us have focused on here. That needs a 
much different set of benchmarks and a much different set of 
pressures as a result.
    Ms. Bass. Ambassador, do you have a viewpoint on this?
    Ambassador Lyman. I fully agree, as I said in the testimony 
that what's missing in these benchmarks is the focus on some of 
the fundamental political issues including and especially human 
rights, et cetera, and that has to be the focus of the next 
round of discussion, because if you just only stick with these 
they're holding positions but they're not definitive.
    But then one has to define what those steps are. What are 
the steps that you think are both feasible and meaningful? I 
think there are a number in terms of political for a space of 
stop harassing civil society and arresting people and torturing 
them.
    There's a lot you can do in that area. It doesn't still 
answer the question of a political dialogue that ends the 
fundamental problems of the outlying areas. But one can make 
some very specific criteria in that area that at least starts 
to give space, and then one has to deal with both the other--
some of the others.
    So I think that is the key to the next round. But it 
doesn't wait until we get to July. In other words, that should 
be already part of the dialogue that's going on now so that 
regardless of how you come out in July you already have an 
understanding and agreement as to where this is going next.
    If you don't have an understanding on that by the time we 
get to July, you haven't accomplished a great deal and so I 
think that has to start now.
    Ms. Bass. Mr. Dettoni.
    Mr. Dettoni. Well, Congressman Garrett said trust but 
verify. I can't allow myself to trust. I mean, given the 
history, all the broken agreements that have occurred, I can't 
allow--and I don't think we should have as a policy to trust 
Khartoum and its current regime.
    Ms. Bass. What do you think should be done?
    Mr. Dettoni. Well, I do think we need to tie the sanctions 
conditionally. I think the Trump administration needs more time 
to get their personnel in.
    I think that they have been slow to put their people in and 
the administration needs to own this.
    Ms. Bass. So you think they should put the sanctions back, 
the ones that were----
    Mr. Dettoni. No. They should--we should extend the 
sanctions for 180 days or even a year because, yes, they have 
violated almost every agreement to a degree that they've made 
with the CPA.
    They did allow the South to secede. There is a semblance of 
peace and there is some hope, I think, in the two areas in 
particular and I think that the new administration and the 
Congress needs to try to give this some life.
    Ambassador Lyman can speak to this--there was almost an 
agreement on humanitarian aid. The Obama administration pushed 
very hard for an agreement in the two areas for the delivery of 
humanitarian assistance and I think it was just too much too 
late, and I think that the people who would not agree with it 
saw a new administration on the horizon and said, we just got 
to wait and see and we'll deal with the new administration.
    So, give the administration some more time. Find these 
areas. Get their people in. The administration--they need to 
own it because it's--whatever happens in the region it's on 
their watch now.
    Ms. Bass. Mr. Brooks-Rubin, I know in the Enough Project, 
and I think you made reference to--it's the Sentry? Is that 
what it's called? And I wanted to know if you could speak about 
that in terms of assets that you think are offshore.
    Mr. Brooks-Rubin. Thank you, Representative Bass.
    Yes, the Sentry is an investigative initiative that the 
Enough Project and other partners have launched to get at the 
question of if we are going to use all these policy tools we 
need to have the intelligence behind it to know who those 
targets are and who they should be.
    So with respect to South Sudan, we've been able to document 
quite a lot of the properties of--and corporate holdings of the 
officials that are leading to that crisis and with respect to 
Sudan, the same.
    So there are properties and assets that we are 
investigating around the region, and in other regions and we've 
looked extensively also at the banking network and trying to 
understand how--as I referenced in the testimony, how the 
Government of Sudan even during the sanctions was able to 
establish banking relationships that allowed correspondents--
that allowed money to move and ultimately even move through New 
York through that system.
    So trying to understand where those banking nodes are will 
allow FinCEN at the Treasury Department or at other financial 
intelligence units and banks to zero in on where that money is 
moving and how they can stop it.
    Even if the sanctions were to go away, in many cases what 
you're talking about are assets that are the proceeds of 
corruption. They are stolen from the people.
    As that money moves through the financial system, banks can 
still go after it. The financial intelligence units can still 
go after it because it's money laundering.
    The last thing I would say on the assets is looking 
extensively at gold. We have a report that we just issued 
yesterday called ``Sudan's Deep State'' that looks at the gold 
sector, the weapons sector, the land sector, and looking at how 
these sectors enable the regime and key leaders, key officials 
close to President Bashir, key entities I mentioned in my 
testimony, the NISS, an extensive corporate network that is 
enabling key members of the regime to move money around. That's 
where we can focus our tools.
    So with the Sentry's information provided to the relevant 
actors, the hope is then they can take and use these kinds of 
financial pressures we have used to get at other regimes. We 
need to be able to do that for Sudan.
    We need to be able to do that for the people of Sudan, to 
target those economic sectors and those actors and move away 
from this blunt instrument we had in the past.
    But you need the information for it. We saw with the Sentry 
that there aren't a lot of the resources devoted to gathering 
this kind of financial intelligence around east and central 
Africa.
    We, the U.S. Government, devoted to lots of other parts of 
the world. It's needed for east and central Africa and then the 
Sentry was the ability to say well, we can collect as much as 
we can--we'll turn that evidence over and then hopefully, use 
will be made of it.
    Mr. Smith. Thank you. Let me ask a number of questions and 
then take the ones you would like.
    Mr. Brooks-Rubin, you, in your testimony, pointed out that 
Sudan has used the provisional easing of the sanctions put in 
place in January not to begin the necessary reforms of 
structural deformities of the country's economy but instead 
order fighter jets and battle tanks from its traditional arms 
suppliers in Russia and China.
    Do you all agree with that? If you could elaborate on that. 
Let me just point out that with the Iran deal, which I thought 
was egregiously flawed on multiple fronts including the 
procurement and development of nuclear weapons and the means to 
deliver them in Iran, sanctions should have been allowed to 
stay in place far longer to get a deal that was verifiable and 
real rather than allowing them, minimally, after 10 years to 
have an industrial state capacity to produce fissile material.
    Well, human rights were deliberately left out of that 
negotiation and the same thing happened with North Korea. We 
had Andrew Natsios, our former USAID Administrator and a man 
who wore many hats within previous administrations and an 
expert who also heads up a North Korea human rights 
organization, testified and he said there, too, in North Korea 
human rights are just thrown under the bus. No comments. Just 
work on the nuclear issue, and when that didn't materialize 
then no progress was made.
    Matter of fact, just the opposite. They do have nuclear 
capabilities now and they're ever perfecting the means to 
deliver them. Human rights were unaddressed and now we have 
these five different mutually reinforcing areas where human 
rights are deemphasized, to put it mildly.
    So if you could speak to the issue of what they're buying 
and, of course, what is Iran buying, like, perhaps Sudan--
weapons, surface to air missiles in the case of Iran.
    You point out that fighter jets and battle tanks are being 
bought. That, to me, would be a gross exploitation of the 
easing of sanctions.
    Let me ask you, who's in charge? Bashir wanted to go to 
Turkey and the European Union asked Erdogan to arrest him and 
send him to The Hague, pursuant to the ICC indictment. And yet, 
he's travelled some 74 times over the years, although he did 
not go to Indonesia because several countries would not allow 
overlight airspace traversing by his aircraft.
    So that put the kibosh on that. But China had him there, as 
we know, and others have as well--South Africa as well, and 
there's a court case.
    Is he in charge? Maybe you could speak--maybe, Ambassador 
Lyman, you might want to speak to that as well. Who really is 
calling the shots in Sudan? Are there other people in the 
administration who present a more benign face to us, the 
Americans and to the Europeans and to the Africans and 
everyone, that then can cobble together deals while the master 
genocidaire who ought to be at The Hague for crimes against 
humanity and the like, continues to pull the strings.
    Again, as I said, when I met with him in 2005 along with 
Greg we talked humanitarianism, access, Darfur camps, the 
ending of the hostilities and supporting the Janjaweed.
    And what did he talk about just the entire time? Lift the 
sanctions. Lift the sanctions. I met with Secretary Kerry when 
he was still Chairman John Kerry when he was still on the 
Senate side.
    He was asking for sanctions relief there. So another 
question would be the origin of this. Was it a good positive, 
natural evolution of now is the time to make a deal to try to 
help the humanitarian crisis or was this something that was 
sought after for a long time that gives us a semblance of maybe 
a better situation there but maybe it doesn't?
    They're rearming and building up their capabilities like 
Iran now, becoming far more menacing and ominous if they get 
that capability, buying more battle tanks and fighter jets.
    And you, Mr. Dettoni, in your testimony you make reference 
to the Enough Project and their new report entitled ``Border 
Control from Hell,'' how the new migration partnership 
legitimizes Sudan's militia state.
    Now, for seemingly a very selfish reasons, the EU is 
selling this capability to mitigate the flow of, and here it 
is--without objection, we'll put the--parts of it, certainly 
the executive summary in--but they're able to mitigate the flow 
of refugees when we are providing them a capability that could 
be used for far more nefarious purposes. So if you could speak 
to that.
    And then you make the statement, Mr. Dettoni, and the 
others might want to speak to this, on the issue of 
humanitarian access to the two areas, South Kordofan and Nuba 
Mountains and the Blue Nile State, ``I do not believe any 
humanitarian access has crossed the battle lines from Khartoum 
into the two areas.''
    Is that still accurate as of today, in all of your 
opinions? That would be an important part of this. And, again, 
why January 13th? Was that the natural time when this came to 
fruition for the administration to make this decision?
    To hand an incoming administration a well thought-out 
policy that came to its natural fruition on January 13th to 
promulgate this or was it--should it have been done 6 months 
ago or not at all and wait for the new administration? I'm 
baffled by the timing of it.
    As you're going out the door you say, here, take this. It 
may be very well crafted but I would appreciate your insights 
on that and these other questions again, like who's in charge 
for real in Khartoum. Mr. Brooks-Rubin.
    Mr. Brooks-Rubin. Thank you, Chairman Smith.
    There's a lot there. I guess let me just try to answer a 
couple and if I missed I will keep coming back.
    In terms of the purchases that we've seen, reports and 
information about what's happening on the ground continue to 
come in and we are happy to provide more information on those 
purchases of interest.
    I think the bigger point is and one of the debates around 
the sanctions lifting is is this really going to matter--does 
this really change the economic situation on the ground.
    And I think one thing that's important and reflective of 
purchases like these are it opens up the ability for there to 
be one-time purchases like this. Maybe long-term investment 
remains questionable because of the overall business 
environment in Sudan.
    But now the banking channels are open. Now without fear of 
transactions being rejected or blocked by a bank along the way.
    So you create an enabling environment that then allows the 
regime to then decide what it's going to do and, again, from 
our assessments so far, although there have been the cessation 
of hostilities that's been discussed, the long-term planning 
that envisions the sanctions being removed altogether is 
looking ahead to the ability to make these kinds of weapons 
purchases and really entrench itself further.
    What we are doing by this policy is essentially enabling 
the regime to just simply entrench itself further without 
creating any mechanism to have these discussions about a 
broader democratic process and peace process in the country, 
which in some way leads me to the Iran question. And you're 
absolutely right that human rights have been sort of 
consistently left off the table in all of these situations.
    I think what's notable in the Iran example is that we still 
do maintain a pretty significant level of sanctions. Not all, 
and certainly has enabled quite a lot of activity by the 
Iranian regime but we still maintain at some level some robust 
sanctions in place.
    With Sudan, we are talking about still taking these limited 
steps but yet giving away the rest of the existing sanctions 
program without replacing it with anything, which seems in 
inapposite and really, again, as you said, Mr. Chairman, giving 
away the concept of human rights.
    Your reference to Ambassador Natsios is a useful one. In 
preparing for the hearing, I went back and looked at a press 
conference that he and Deputy Secretary Negroponte and former 
OFAC Director and Acting Under Secretary Adam Szubin had way 
back in 2007 when I was at Treasury. When they announced Plan 
B, which was the rollout of Darfur sanctions, which was really 
supposed to put pressure on the regime to stop what was 
happening in Darfur, to stop the genocide, the sanctions that 
were announced at those times weren't strong.
    We were really just identifying companies that were already 
sanctioned, but we were promised, and Ambassador Natsios' 
remarks in that press conference really say that we are going 
to use pressure and we are going to use robust enforcement to 
really get at these critical issues of human rights and that 
pressure was the only way to deal with the regime in Sudan and 
we never saw that happen.
    Human rights was never truly tried to pressure in any 
meaningful way and that's what we think needs to happen now and 
you need to have these independently verifiable benchmarks 
around peace and human rights and religious freedom in order to 
get there.
    In terms of the question about sort of where did this come 
from and where did it originate, obviously, a lot of what was 
happening within the administration isn't entirely clear but it 
does seem--certainly seemed to us that this was--at least the 
decisions at the end about what sanctions relief to put on the 
table seemed hastily created and, as you said, handing the next 
administration, here, we are leaving you something that you 
need to make sure you deal with and to continue the process 
going.
    Obviously, something was needed in order to keep the 
Sudanese engaged. But it certainly did not ever appear to be, 
as you were indicating, may have been preferable, a well--a 
long, explained and thought out process.
    This was something that was really only announced at the 
very end and there wasn't the level of deliberation and at 
least engagement with the NGO community that we had at the very 
end and the Executive order says there has to be consultation 
with the NGOs, moving forward.
    But what that process was, why we got there wasn't really 
ever clearly established. So I think I will stop with those for 
now and happy to come back and address the others.
    Mr. Smith. Who's in charge? Did you want to touch on that?
    Mr. Brooks-Rubin. Who's in charge? I think that's a 
question maybe others may be better placed to answer than me 
specifically.
    I think it is a real question that I think we all struggle 
to really understand and I think as we've looked at the violent 
kleptocratic network that the regime and its insiders have 
established, clearly, you have to deal with President Bashir.
    But there are a lot of other key actors, key advisors and 
really these entities like the NISS and key corporations that 
really also play and important role and I think we haven't 
really talked about the impact of the Gulf and the dynamic 
between the way the Government of Sudan the shifting alliances 
between Iran and the Gulf and the role that the countries in 
the Gulf play both in terms of investments that they have, or 
if you want to call them investments, essentially giveaways by 
the Government of Sudan in exchange for cooperation.
    So I think the role of the Gulf is also critical to explore 
here in terms of the broader picture of who's in charge.
    Ambassador Lyman. Thank you, Mr. Chairman.
    Let me try to deal with some of these questions as well. 
Who calls the shots? Well, I think it's always been a mistake 
for people to underestimate President Bashir.
    He has solidified his control. He's managed to move people 
around when they get too powerful. Not long ago he dismissed 
two very powerful people, Vice President Taha and Nafi Ali 
Nafi, and who knows, they may come back 6 months from now. They 
were both very powerful people.
    There are two military organizations. There's the regular 
military and there's the NISS, which controls the militias, the 
so-called Janjaweed. Now it's called the RDF or whatever it's 
called. So you have power centers there, all of which the 
President uses to, frankly, maintain his own position, protect 
his own interests, et cetera. He's appointed a Prime Minister, 
Prime Minister Bakri.
    Bakri is someone very close to the President. I think he 
feels that Bakri is someone who will also protect his 
interests.
    So you have an autocratic system but with someone who plays 
powerful interests against each other. Now, it also is true, 
going to another question, that there are people with different 
opinions about where the country ought to go.
    There are a number of people who understand that the system 
that they've been operating for a long time, where you keep the 
outlying areas at bay through fighting, through co-optation, 
through exploitation, whatever, keeps the power at the center, 
is draining the country and will keep draining the country. 
They've got people like former Minister Ghazi and others who 
have spoken out on this and written about how to democratize 
the country, et cetera.
    There are also people who want a better relationship with 
the United States and understand. There are other people who 
feel very, very differently--that all our talk about human 
rights and peace, et cetera, is a danger to the security of the 
regime.
    And as long as they consider human rights and accommodation 
a danger to the security of the regime, they're going to fight 
against it. And the difficulty for us outsiders is how do you 
engage in that situation and you try engage, encouraging the 
people who are thinking differently and trying to counter the 
arguments of those on the other side and it's going to be slow 
and it's going to be a very difficult process and we have to 
keep working with it.
    Now, the origin of the--actually it's a product of about 
2\1/2\ years of debate inside the administration--first, 
whether we should have such a dialogue at all, whether the 
Sudanese are open to it. And you have to remember that my 
successor, Don Booth, couldn't get a visa to Sudan for over a 
year.
    So the question was how do you relate? It was a long tough 
debate and then toward the end what are the elements of the 
debate. Got to the end of the administration. They put it out 
there and I realize it puts suddenly something on the next 
administration.
    I think the 6 months is because these are very limited 
conditions, very limited benchmarks, and if you had them out 
there for a year it could last but not move you any farther, at 
least that's my interpretation. You have to ask the people.
    Now, I'd like to talk a little bit more about humanitarian 
access because some of us for many years have been fighting 
this issue of humanitarian access and others have, et cetera.
    But it has been a political football by both sides. Okay. 
Sometimes the opposition says that is our number-one concern 
and sometimes they say well, it has to be linked to the 
political dialogue.
    There are people in the government who don't want 
humanitarian access because they do believe that, you know, 
that without it it weakens the opposition. They're also afraid 
of weapons being coming in and all of that.
    But we are very close to an agreement on--``we'' I say 
under Thabo Mbeki--very close to an agreement on humanitarian 
access and the opposition said, okay, we are all for it except 
it has to come--at least some of it has to come from Ethiopia. 
It can't just all come from Sudan.
    Now, you can argue as to whether you think that was a 
worthwhile condition to hold it all up. The governments didn't 
agree with that and both of them are playing games because it's 
related to whether they're really willing to move beyond that 
to a political dialogue.
    And the people who suffer are the people in the two areas, 
and I'm personally unsympathetic with both sides on this 
particular issue.
    But it does go to the complexity of this--of the 
negotiations. Humanitarian access really has to be linked to an 
understanding in the two areas that it's not a one-time thing.
    It's got to be part of a process where you have a cessation 
of hostilities and have a political process. If it's a one-time 
thing it'll break up in 6 months and it won't have accomplished 
more than that immediate----
    Mr. Dettoni. Piggy-backing on some of your comments, I 
agree, that the cease-fire and the humanitarian assistance have 
got to be linked for it to last and I think that's the 
justification.
    We've seen some hope because the fighting has really slowed 
or ceased and for me, we do need to try to give peace a chance. 
Unfortunately, we have to incentivize Khartoum.
    I also think Khartoum has played America very well. I mean, 
very good poker players. I wouldn't go to a casino if they were 
dealing and I mean that as respect for their intellect and 
their capability and as far as Bashir and the people he's got 
in power.
    I think that they assume that we forget. I think that they 
could overwhelm us with problems and complexities, but at the 
end of the day I do agree, who's still in power? Mr. Bashir.
    Hassan al-Turabi, who was the intellectual--the power, the 
brains, whatever you call it, behind the National Islamic Front 
when they--when they took over Bashir and he took over power in 
1989. But he's dead. Mr. Bashir's still in power.
    And I've heard anecdotally from other people who have been 
close to Mr. Bashir that he knows what he's doing. He knows the 
people around him. He knows very well how to play them off of 
each other and how to stay in power.
    I also think that we do need to look at their actions, not 
what they say. They'll say what we want to hear. I think 
they'll say to diplomats what we want to hear and smart 
diplomats, wise diplomats like Ambassador Lyman know that.
    For instance, religious freedom, Mr. Wolf said it, you said 
it--it's the canary in the coal mine, particularly in regions 
like Khartoum and the issues that are going on there.
    All we have to do is look at the past several months. You 
know, the Czech pastor who was arrested--complicated reasons 
why. He snuck in, took footage, they caught him when he was in 
Khartoum--not the smartest thing to do, and I don't--but still.
    But then they arrested two Sudanese pastors who evidently 
were at a religious freedom conference in Addis. The 
intelligence network for Khartoum were there videotaping it, 
like they're probably in the crowd here videotaping this, and 
so they locked them up when they went back to Khartoum.
    So for me, the nature of that what's called a government, a 
regime, is that they fundamentally, I don't think, believe in 
religious freedom. Hassan al-Turabi changed his tune about 10 
years ago, started writing about religious freedom because we 
were down there talking to him.
    Other people were talking to him. He said, you thought I 
could curry favour with the West. But I think you have to look 
back to the 1990s with what they did to justify their violent 
and militant attacks against America and our allies and the 
type of people that are willing to do that, and they're still 
in power, what are they really about. And I think we need to 
know that.
    Now, we also need to give peace a chance. We can't just 
forget it and walk away, and we led the peace process with 
President Bush for the South and for Sudan and we have a moral 
obligation but it's also in our security interest to do so.
    You had asked about the humanitarian assistance, if 
anything has gone in through the battle lines and, to my 
knowledge, no--that crossed the front lines, no.
    Ambassador Lyman, I think you already touched on some of 
the rationale behind it. I've heard that the opposition looked 
at what happened in Darfur and they said no way, we are not 
allowing that to happen again.
    I don't know all the details about what happened in Darfur 
but I heard that security really controlled what was going in 
and what was going out.
    And I know that, like, in a lot of other countries, not 
just in Sudan, but Sudan looks at refugees as a security issue 
and you don't know which aid workers to the Red Crescent or 
whoever else like that is working for their intelligence 
service or for some security apparatus there.
    If you walk as a Catholic bishop or a Catholic priest with 
a truckload of grain or something like that, whatever, that's 
pure humanitarian goods and gets to go in, the chances of you 
getting that through, in my opinion, all of it through would be 
slim.
    On the refugee situation, specifically to Eritrea that I 
wrote about, I had a European official who works on refugee 
issues tell me--I said, oh, you know, I said, oh, you have--you 
have a lot of Eritrean refugees coming to Europe--that must--
you must be excited about that, what have you.
    And he's, like, no, no, no, we are not--we don't want them. 
They can't speak any--they're not--they're very unskilled, very 
uneducated. They're traumatized from what happened to them when 
they had to perform--serve in the military.
    And the report that you all did at Enough, it catalogues 
the state that the Europeans don't want the Eritreans coming 
because they're a threat to their society to have them there 
because they could be lost, they're uncontrolled and that sort 
of thing.
    Lastly, I think that the--I have great respect--I've never 
served as Special Envoy. The pressures that are there are--and 
the kind of work that you have to do, very difficult.
    I think that Special Envoy Booth--I didn't understand it 
but he sort of in a very--cerebral, smart but I think he lost 
control when he was at the USIP giving comments before he left 
and he singled out the SPLM-North particular for--and blamed 
them for the humanitarian assistance agreement falling apart.
    I don't think envoys should do that very often and I think 
what he said was, these people--and he also was referring to 
other--all of the leaders are serving themselves more than 
their people.
    But then as Ambassador Lyman said in his remarks, the SPLM-
North itself is having some issues right now. One of the top 
figures wants self-determination--ill-defined, whereas some of 
the others say no, we belong as a unified--John Garang's vision 
of a new Sudan--democratic participation.
    And so I felt like that they were pushing so hard for 
whatever reason--maybe for Mr. Obama's legacy. I don't 
understand why. But I think that, you know, whoever takes over 
as envoy, whoever inherits his portfolio within the Trump 
administration is going to have to walk some of that back.
    The other thing--I've said it before but it's--we have a 
lot of dedicated career professionals in the State Department 
and all over. But, you know, right now our Africa policy and 
our Sudan and South Sudan policy is rudderless and it won't 
have a rudder until Mr. Trump gets his people in key positions.
    And so I don't think if I were Khartoum or if I were the 
opposition members I wouldn't--if I got an email from--or a 
conversation from somebody in the State Department right now, I 
wouldn't pay any attention to it.
    I'd say, you know, put a Trump person in there, then I will 
deal with you. It'd be the same if it was, you know, a 
Democratic administration. You got to have your own people in 
to do the work and have some guidance from the top in order to 
have the credibility and to get some things done.
    So I think we are in a real holding pattern and that's 
another reason why I suggest 180-days long or a year because 
it's going to take a few more months until we get some key 
people in at the White House and in the bureaucracy to handle 
these issues.
    Mr. Abubakr. I would like to get back to you about all 
these points in writing in detail.
    Mr. Smith. Sure.
    [The information referred to follows:]
 Written Response Received from Mr. Mohamed Abubakr to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith
    As always, whoever is footing the bill. Nowadays that happens to be 
Saudi Arabia. GoS greatest survival tool/skill throughout the past 27 
years has been shapeshifting . By pulling strings of all ideologues in 
the region, by sounding exactly like them in their line of thinking 
when it's needed, Al-Bashir managed to extort solidarity funds to keep 
his regime afloat. There's absolutely no doubt that Saudi Arabia's has 
the greatest influence on the decision to ease sanctions on Sudan. 
Similarly, Saudi Arabia has everything to do with what will follow in 
Sudan internally and its behaviors regionally. Exactly like Iran did 
before Al-Bashir sold them out. The new government that will be 
announced is to formalize the new direction and ideology adopted by the 
regime after they (once more) switched their allegiance.
    Truth is, GoS' Alpha and Omega is money. Self-enrichment is what 
this government is all about, and it would change its behaviors and 
ideology in any way that would grant more access to more funds. While 
that's terrible party to engage with, I think it's also one that can be 
made to comply, using a very simple quid-pro-quo formula that directly 
ties human rights, religious freedom, and civil liberties enhancement 
to access to funds would without a doubt work, and work effectively. 
The assumption that human rights and religious freedoms will always be 
rejected by the government of Sudan is simply wrong. It will be 
dismissed if it's on the table along with other items that they can 
pretend to deliver on (like peace process, for example).

    Mr. Abubakr. But I want to build on one point that was made 
about the question of who's in charge.
    I definitely agree it's al-Bashir who's in charge and I 
think where this is coming from, what is calling the shot at 
the end of the day I believe it's not ideology or for power.
    I think it's money, at the end of the day, and I think the 
only way to get that kind of change in human rights and 
religious freedom, as Ambassador Lyman said, if there are 
elements in there that will always push and push aside human 
rights as something that is part of something on the table and 
I think the way to go about it is to make human rights 
profitable, to make it the thing on the table, the main thing, 
and religious freedom and human rights the thing to negotiate 
about, not something additional on the table that they can cast 
aside. And that's all I want to say about that.
    Mr. Smith. Thank you.
    We are almost finished because we do have to be out of here 
by 5:00. But I just wanted to ask maybe a lightning round here. 
Do we need a Sudan Special Envoy again?
    I'm thinking of introducing a bill. It shouldn't take a 
bill. The President could do it with a snap of his fingers. But 
is that needed? Is it a recommendation you would make?
    Secondly, Juba and South Sudan--and Greg and I were in Juba 
last August meeting with Salva Kiir, pressing these issues of 
humanitarian access to end the sexual violence, now, sadly, a 
famine.
    That has taken the eyes off of Khartoum and put them 
squarely to the South. Has Khartoum then exploited that lack of 
scrutiny that they are not getting to the degree they used to?
    Are the church leaders and that would include Muslim, 
Christian, the imams, all the church leaders, are they being 
used effectively in any kind of interfaith effort or is that a 
nonstarter?
    And finally, UNAMID, we met with UNMISS when we were in 
South Sudan. The Security Council has made some very 
significant changes to their operating procedures, especially 
after the debacle in the Terrain compound and when they did not 
act and I did have the privilege of speaking to the Security 
Council.
    I was invited, as I said earlier, by Nikki Haley to be at 
the Blair House, be one of four members presenting.
    And I pointed out, they were obviously the ones that are in 
charge of this ultimately, they made some very significant 
systemic reforms. Hopefully, they pan out well, going forward.
    But UNAMID, your thoughts on that. Is their mandate 
sufficient? Are they doing what they should do? And then 
anything you'd want to add please do and then we'll conclude.
    Ambassador Lyman. I could start quickly on that. Thank you.
    You know, I think the administration is reviewing how many 
Special Envoys they ought to have and for what purposes. I 
think in this case there should be a Special Envoy, empowered, 
as Mr. Dettoni had said, because the kind of negotiations that 
need to be done on both Sudan and South Sudan require high-
level attention.
    Has to be someone who speaks for the President. People know 
he speaks or she speaks for the President and can engage on 
hard negotiations in both north and south.
    You know, there wasn't this much attention to Sudan lately 
as--and thank you for this hearing because South Sudan is such 
an overwhelming problem. But I think it's coming back as we 
look at this EO and the issues that are being raised and the 
kinds of the decisions.
    But I do think it's important when you talk about Sudan it 
goes to the question Mr. Garrett raised, they are players in 
the South Sudan situation. They've pulled back on some of their 
support for the opposition. That was part of the understanding 
in this track.
    But there's much more to be done on South Sudan. IGAD is 
divided. They are major players in IGAD. I would like to see 
them step up much more constructively.
    On UNMISS, I think they have improved in management but 
they are limited. Right now, they are overwhelmed with their 
protection of the people who are writing those POCs--they're 
called protection of civilian areas.
    They don't really intercede between the government and the 
opposition. The fighting is going on. They don't have quite the 
capacity, let alone the mandate.
    So they are not--they're relevant and can be more relevant 
for protection. They're not relevant, quite frankly, to 
stopping the fighting.
    Mr. Smith. Thank you all for your expertise. If nobody else 
wants to comment, let me just say----
    Mr. Brooks-Rubin. Maybe just 2 seconds on the envoy 
question. I apologize.
    I think we generally would agree with that. I think the 
bigger issue is what Mr. Dettoni said is in order to have an 
envoy who's going to really make an impact you need a policy 
and until there are policymakers clearly in place, an envoy 
runs the risk of not being able to advance a clear policy and 
not being taken seriously, as Mr. Dettoni said.
    So, I think our perspective is if there is a clear policy 
and a strong policy and then someone who can clearly and 
strongly carry it out with the clear backing of the 
administration that is clear to Khartoum has the backing of the 
administration as, again, Mr. Dettoni made clear, then that's 
important and I think the last point I wanted to make by 
jumping in is this is where there is, clearly, a role for 
Congress and, clearly, a role for this committee to make clear 
what are the priorities and what needs to be done now in this 
while there is this uncertainty.
    This is really when Congress needs to act and take the 
mantle by establishing what are the policies that really matter 
and what are the mechanisms and measures we need in order to 
achieve them.
    So I think that's ultimately where we can move on.
    Mr. Smith. Does that mean new legislation or just----
    Mr. Brooks-Rubin. It could, yes. I mean, it should--it 
should--it should--it should mean legislation. There is a 
proposal that I think would have a lot of these measures in 
them and outline the diplomatic track that's needed to get at 
the human rights and peace track that we talked about.
    So yes, it's legislation, it's also clearly indicating to 
the administration these are what the priorities are. But we--
--
    Mr. Smith. You did say in your testimony it should be 
delinked from the five tracks.
    Mr. Brooks-Rubin. Yes.
    Mr. Smith. Why wouldn't it be incorporated?
    Mr. Brooks-Rubin. Well, I think from our perspective, the 
five tracks have their own trajectory. They have their own 
limited set of issues they're dealing with. What we are talking 
about are much bigger issues that need much different 
pressures.
    And so in some ways let's not muddy the waters on either 
side. Let's keep two sets going so----
    Mr. Dettoni. Sudan, South Sudan--the whole issue has 
traditionally had very good bipartisan support. In a town right 
now that's, as you know better than we, it's hard to work with 
the other party, whichever party you're in right now.
    This is a winner as far as bipartisan approach, and I know 
that you're willing to work on the issues with everybody.
    But the President and others, this could be a winner and a 
good way to develop some relationships because, you know, at 
the end of the day, working with the other side of the aisle is 
always about relationships, not always about party politics.
    I want to underscore what I wrote in the testimony what 
Ambassador Lyman said, if a tree falls in North Carolina I'm 
not blaming Khartoum.
    This was their policy for years and years and years to 
destabilize South Sudan. The rebel movements--they were very 
good at it in the North, South, call it that war. They have a 
network. They have the capability to run everybody and they can 
run circles in some ways around and destabilizing South Sudan.
    So if you're able to get that classified review I would 
really ask to know the history of that to the extent that you 
have the time to listen and to know what's halted, in their 
opinion, and what's continued.
    And this needs to be on the table because the two 
countries, they were one country for a long time. They're 
linked. Their futures are linked. If they're not getting along 
then there's going to be destabilizing and massive humanitarian 
issues.
    So that's one thing I would not let go of.
    Mr. Smith. It's an excellent point. Yesterday, Greg and I 
did get a classified briefing. We want to include others and 
now that we have even more questions to ask we'll do another 
one.
    But it's a great idea because we always want to not do 
something unwittingly to damage what is being done if it's been 
well thought out. So I can't talk about the briefing, 
obviously, but we did have one yesterday.
    But your point is very well taken about getting Royce, 
Engel, Karen Bass and I and others all to do it. Thank you for 
that.
    I deeply appreciate--we appreciate it at the subcommittee. 
Your information, we will get it over to State but, more 
importantly, to some of the people at the White House.
    Obviously, we benefit from your expertise and wisdom--
Congress and the executive branch. So thank you so very, very 
much. The hearing is adjourned.
    [Whereupon, at 4:59 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subsubcommittee on Africa, Global Health, Global Human 
                Rights, and International Organizations
                
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
